U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

August 20, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Maci Denon Davis and Joe L. Franklin v. United States, No. 20-7878
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 26, 2021.
The government’s response is now due, after three extensions, on August 27, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including September 27, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

20-7878
DAVIS, MACI DENON AND FRANKLIN, JOE E.
USA

ANNA MARIE WILLIAMS
FEDERAL PUBLIC DEFENDER'S OFFICE
112 W. CENTER ST.
STE. 300
FAYETTEVILLE, AR 72701
479-442-2306

